                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

11   Case Number: A06060024
                                                                                    11          Page 1 of 2



                   An NSF employee1 advised NSF OIG that an NSF grant proposal2 to the Biological
           Sciences Directorate was effectively, a duplicate of a pending NIH proposal3. Further
           investigation and the subject's response4 verified this allegation. The Biological Sciences
           Directorate has a long-standing policy against this practice which says in pertinent part:

                      Research proposals to the Biological Sciences Directorate (not proposals for
                      conferences or workshops) cannot be duplicates of proposals to any other Federal
                      agency for simultaneous c~nsideration.~

                   This investigation was opened to determine if this was an isolated incident or part of a
           pattern of misconduct. The subject received one prior award6 from NSF. That application was
           for a Beginning Investigator Award, and therefore, qualified for an exception to the Biological
           Sciences Directorate prohibition on duplicate proposals. See Grant Proposal Guide, Ch. I , Sect.
           A. The subject withdrew his NIH application upon receiving that earlier NSF award.
                   The NSF proposal under investigation is a revised proposal7 initially submitted to NSF
           and resubmitted a month later to address broader impacts. Ultimately, NSF declined to fund that
           original proposal. A similar original NIH proposal was already under consideration, but was
           declined shortly after the NSF proposal was filed.
                   Therefore, at the time of the original NSF application, the subject had not been officially
           declined by N I H ~ .There was a six-day overlap in the original proposals to NIH and NSF.
           Furthermore, the subject failed to indicate a "submission planned in the near future" in the
           revised proposal that generated this investigation.
                   The subject cited personal errors and demonstrated genuine remorse in his response to our
           inquiry. He explained how these events unfolded and had his university's vice president of
           graduate research9 co-sign his response.




I'
 NSF OIG Form 2 ( 1 1/02)
                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: A06060024                                                                    Page 2 of 2



    Conclusion
           The subject's response and past actions do not demonstrate a pattern of misbehavior. The
    subject admits that these proposals did not properly reflect the status of pending support. His
    response acknowledges his past inappropriate conduct and future responsibilities.

           As the principal investigator and as the recipient of federal research funds, it is my
           responsibility to know the rules.. .[I]n the future, I will.. .seek assistance from the
           experienced research administrators available at my institution. I also realize that
           I need to manage the time required for preparing my submissions.. .in order
           to.. .review all of the details.. .including administrative details.''

    Accordingly, this case is closed.
